         Office of Inspector General




March 28, 2006

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT: Audit Report – Surface Transportation – Bulk Mail Center Surface
         Transportation Routes – Summary Report (Report Number NL-AR-06-004)

This is the last in the series of reports from our nationwide bulk mail center (BMC)
surface transportation route audit (Project Number 04YG013NL012). We conducted the
audit in response to your request and this report summarizes our work. Our objectives
were to evaluate the effectiveness of scheduled BMC transportation and identify
opportunities to save money.

The 12 reports that preceded this summary collectively concluded that the U.S. Postal
Service could reduce rail and highway transportation costs by about $40.6 million
without affecting on-time performance because trip mail volume was low and mail could
be consolidated. The reports involved a total of 22 recommendations; we issued the
reports to area vice presidents; and we included their formal written comments.

In their comments, area vice presidents agreed with all of our recommendations and
generally agreed with our monetary impact assessments — although they frequently
stipulated that because of the dynamic nature of a constantly changing transportation
network, the calculation of future savings was imprecise. In our various semiannual
reports to Congress, we already identified the $40.6 million in potential savings as
potential funds put to better use, so we are not reporting them again in this report.

Throughout our audit, we appreciated the noteworthy cooperation of Postal Service
transportation officials in the various areas and that of your staff. Management’s
comments were responsive to our findings and recommendations; we consider
management’s actions, taken or planned, sufficient to address the recommendations we
made throughout our audit; and we have no further recommendations at this time.
If you have any questions or need additional information, please contact Joe Oliva,
director, Transportation, or me at (703) 248-2300.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI




for
Colleen McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William P. Galligan
    Anthony M. Pajunas
    Steven R. Phelps
Surface Transportation – Bulk Mail Center Surface                                   NL-AR-06-004
 Transportation Routes – Summary Report


                                           INTRODUCTION
 Background                     This is the last in the series of reports from our nationwide
                                bulk mail center (BMC) surface transportation route audit.
                                The vice president, Network Operations Management,
                                requested the audit and this report summarizes our work.




   Highway transportation
      contractor in the
   Southeast Area traveling
       Northbound on
       Interstate 95 in
        January 2005.




                                Bulk mail includes magazines, advertising, and
                                merchandise shipped by major mailers like publishers,
                                catalog companies, or online retail companies. A system of
                                21 BMCs and other facilities nationwide process it. Bulk
                                mail is less time-sensitive than other mail such as
                                First-Class or expedited mail. As a result, transportation
                                managers move it over long distances on surface routes,
                                rather than on faster, but more costly air networks. The
                                U.S. Postal Service spends more than $500 million annually
                                on bulk mail transportation.

                                The Postal Service is divided into nine geographical areas,
                                each directed by a vice president for area operations. The
                                individual area vice presidents administer most of the BMC
                                transportation routes. Appendices A and B identify the
                                nine areas. Our audit included detailed work in all nine
                                Postal Service areas and involved close cooperation with
                                area transportation officials.




                                                    1
Surface Transportation – Bulk Mail Center Surface                                  NL-AR-06-004
 Transportation Routes – Summary Report


                                As a result of our work, we issued 12 reports — including at
                                least one to each area vice president — and all areas gave
                                formal written comments which we published as part of
                                those reports. For more details on the 12 individual reports,
                                see Appendix B.

 Objectives, Scope,             The objectives of our audit were to evaluate the
 and Methodology                effectiveness of scheduled BMC transportation and identify
                                opportunities for cost savings.




     Train departing the
     Burlington Northern
     Santa Fe Rail Yard,
   Minneapolis, Minnesota,
      February 15, 2006.




                                Using Postal Service computer-generated data, we
                                identified rail and highway transportation routes that
                                included at least one BMC service point. These routes
                                included 9,573 trips operated under 1,086 surface contracts.
                                In preparation for our work, we provided area officials and
                                Postal Service managers with the list of contracts we
                                intended to audit. During our work, we interviewed officials
                                at headquarters and in the various areas. We reviewed
                                relevant Postal Service policies and procedures. We visited
                                19 BMCs, rail yards, and other facilities; interviewed
                                managers and employees; and observed and photographed
                                operations. We consulted with financial analysts, computer




                                                    2
Surface Transportation – Bulk Mail Center Surface                                  NL-AR-06-004
 Transportation Routes – Summary Report


                                analysts, and other subject matter experts; evaluated mail
                                volume and the type of mail carried; considered service
                                standards; and analyzed all identified transportation routes.

                                We conducted this audit from March 2004 through
                                March 2006 in accordance with generally accepted
                                government auditing standards and included such tests of
                                internal controls as we considered necessary under the
                                circumstances. We discussed our observations and
                                conclusions with management officials and included their
                                comments where appropriate.

                                We examined computer data in management’s
                                Transportation Contract Support System and Transportation
                                Information Management Evaluation System. We did not
                                audit or comprehensively validate the data; however, we
                                noted several control weaknesses that constrained our
                                work. For example, the Transportation Information
                                Management Evaluation System had missing records and
                                inaccurate trailer load volumes.

 Prior Audit Coverage           Our Highway Network Scheduling audit involved nine area
                                reports issued between September 2002 and March 2004.
                                The audit identified 915 trips that could be eliminated or
                                modified by consolidating mail on other trips. The audit
                                concluded that the transportation reductions could be
                                implemented without affecting mail on-time performance,
                                and would potentially save about $42.9 million over the life
                                of affected contracts. For more detailed information about
                                these reports see Appendix A.




                                                    3
Surface Transportation – Bulk Mail Center Surface                                               NL-AR-06-004
 Transportation Routes – Summary Report


                                        AUDIT RESULTS
 Bulk Mail Center               Postal Service policy requires transportation managers to
 Surface                        balance service and cost. Our audit reports concluded that
 Transportation                 the Postal Service could save about $40.6 million over the
                                term of affected highway contracts by modifying those
                                contracts to eliminate trips, reducing trip frequency, or
                                transporting some mail currently moved by rail in excess
                                space on scheduled highway transportation.

                                         Transportation Category           Potential Savings

                                         Highway Contract Routes                 $36,344,535

                                         Rail Transportation                       4,250, 389

                                         Total                                   $40,594,924

                                                    See Appendix B for further details


                                The reports also concluded that the Postal Service could
                                reduce transportation cost without negatively affecting mail
                                on-time performance because trip mail volume was low and
                                mail could be consolidated on other trips.

                                The Postal Service transportation network is dynamic and
                                requirements constantly change. As we discussed in the
                                objectives, scope, and methodology section of our report,
                                Postal Service transportation data has certain limitations.
                                Consequently, our data analysis needed to be tempered by
                                the experience of on-site transportation managers.
                                Accordingly, throughout our audit, we coordinated
                                extensively with plant and area transportation officials,
                                routinely proposed service reductions based on our data
                                analysis, discussed our proposals with them, and made
                                appropriate adjustments. As a result of this cooperative
                                effort, the officials frequently made cost-saving changes
                                before we completed field work.

                                The 12 audit reports we issued to area vice presidents
                                contained 22 recommendations with potential savings
                                totaling about $40.6 million. In their formal written
                                comments, area vice presidents agreed with all of our
                                recommendations and generally agreed with our monetary
                                impact assessments — although they frequently stipulated
                                that for various reasons, including the dynamic nature of a
                                constantly changing transportation network, the calculation




                                                    4
Surface Transportation – Bulk Mail Center Surface                                   NL-AR-06-004
 Transportation Routes – Summary Report


                                of future savings was imprecise. In our various semiannual
                                reports to Congress, we already identified the $40.6 million
                                in possible savings as potential funds put to better use, so
                                we are not doing so again in this report.

                                Throughout our audit, we appreciated the noteworthy
                                cooperation of Postal Service transportation officials in the
                                various areas and at headquarters, as well as their
                                proactive action to rapidly implement transportation
                                reductions and save the Postal Service money. We also
                                appreciated the positive management reaction to our
                                reports. Management’s comments were responsive to our
                                findings and recommendations and we consider
                                management’s actions, taken or planned, sufficient to
                                address the recommendations we made throughout our
                                audit. We have no further recommendations at this time.




                                                    5
        Surface Transportation – Bulk Mail Center Surface                                                                       NL-AR-06-004
         Transportation Routes – Summary Report



                                                                 APPENDIX A
                                                            PRIOR AUDIT COVERAGE
                                                                                        Number of
                                                                                           Trips
                                                                                       Identified for                  Trips with Trips with
                                                                            Date Final Elimination      Potential        which      which       Trips
                                                                             Report          or          Savings      Management Management Identified by
                     Report Name                            Report Number    Issued Modification        Identified      Agreed    Disagreed  Management

Highway Network Scheduling - Pacific Area                    TD-AR-02-003   9/24/2002       158          $4,500,417       76            34          48

Highway Network Scheduling - Northeast Area                  TD-AR-03-002   11/25/2002       18             776,992       10             8           0

Highway Network Scheduling - Capital Metro Area              TD-AR-03-007   3/28/2003        34           1,144,218       20            14           0

Highway Network Scheduling - New York Metro Area             TD-AR-03-008   3/31/2003        32             470,123       12            20           0

Highway Network Scheduling - Southwest Area                  TD-AR-03-010   7/11/2003       249           5,989,082      148           101           0

Highway Network Scheduling - Western Area                    TD-AR-03-013   9/23/2003        70           2,721,530       30            40           0

Highway Network Scheduling - Southeast Area                  TD-AR-03-014   9/26/2003       101          11,352,881       23            24          54

Highway Network Scheduling - Eastern Area                    TD-AR-03-015   9/30/2003       181          10,577,367      128            53           0

Highway Network Scheduling - Great Lakes Area                NL-AR-04-003   3/29/2004        72           5,352,877       48            22           2

                         Totals                                   9                         915         $42,885,487       495          316         104




                                                                            6
        Surface Transportation – Bulk Mail Center Surface                                                                        NL-AR-06-004
         Transportation Routes – Summary Report


                                                     APPENDIX B
                                     BMC SURFACE TRANSPORTATION ROUTES REPORTS
                                                                                        Number of
                                                                                           Trips
                                                                                       Identified for                   Trips with Trips with
                                                                            Date Final Elimination       Potential        which      which       Trips
                                                                             Report          or           Savings      Management Management Identified by
                     Report Name                            Report Number    Issued Modification         Identified      Agreed    Disagreed  Management

BMC Transportation Routes - Great Lakes Area                NL-AR-04-004    9/29/2004        96            7,660,533       49             7          40

BMC Transportation Routes - Eastern Area                    NL-AR-05-003    3/17/2005        35            4,791,570       29             6           0

Intermodal Rail and Highway Transportation - Pacific Area   NL-AR-05-004    3/18/2005         0            1,046,240        0             0           0

BMC Transportation Routes - Southeast Area                  NL-AR-05-005    3/18/2005        52            6,563,582       52             0           0

BMC Transportation Routes - New York Metro                  NL-AR-05-007        6/9/2005     16            1,499,371       16             0           0

BMC Transportation Routes - Southwest Area                  NL-AR-05-008        8/3/2005     79            7,175,912       76             0           3

BMC Transportation Routes - Capital Metro Area              NL-AR-05-009        9/2/2005     10              803,060       10             0           0

Intermodal Rail and Highway Transportation Between the
 Pacific and Southeast Areas                                NL-AR-05-011    9/19/2005         0            1,261,308        0             0           0

BMC Transportation Routes – Pacific Area                    NL-AR-05-012    9/21/2005        22            3,123,562       10             2          10

BMC Transportation Routes – Northeast Area                  NL-AR-05-013    9/26/2005        41            2,491,133       15             0          26

BMC Transportation Routes – Western Area                    NL-AR-06-001    2/14/2006        77            2,235,812       50             2          25

Intermodal Rail and Highway Transportation Between
  the Western and Great Lakes Areas                         NL-AR-06-002    3/10/2006         2            1,942,841        2             0           0

                         Totals                                  12                         430         $ 40,594,924       309           17         104



    BMC − Bulk Mail Center



                                                                            7
